IN THE SUPREME COURT OF THE UNITED STATES
NO. 20-1451

TRACY NIXON
PETITIONER
VS.

GENERAL MOTORS CORPORATION
RESPONDENT

PETITIONERS MOTION FOR LEAVE TO FILE A PETITION
FOR REHEARING

‘SUPREME COURT RULE

44.1

PURSUANT TO SUPREME COURT RULE 44.1

ANY PETITON FOR REHEARING OF

ANY JUDGMENT OR DECISION OF THE COURT ON THE MERITS SHALL BE .
FILED WITHIN 25 DAY AFTER ENTRY OF THE JUDGMENT OR DECISION, '
UNLESS THE COURT OR A JUSTICE SHORTENS OR EXTENDS THE TIME.
THE SUPREME COURT ISSUED AN EMERGENCY ORDER

ONL MARCH 19,2020

and APRIL 15,2020 RELATING TO COVID -19 THAT WAS RESCINDED SEE,
ORDER LIST; 594 U.S.)
THE ORDER IS REGARDING FILINGS THAT*-, PETITIONER BECAUSE OF THE
CIRCUMSTANCES RELATED TO HIS OWN PERSONAL COVID-19 iLIKE SYMPTOMS
PROHIBITED THE TIMELY FILING OF A PETITION FOR REHEARING
THAT ACCORDING TO ORDER LIST: 594 U.S. SHOULD ALLOW ADDITIONAL
TIME FOR PETITIONER TO FILE A PETITION FOR REHEARING.THE PETITION
PETITIONER REQUESTS LEAVE TO FILE A PETITION FOIR REHEARING
THE PETITIONER FILED A PETITION FOR WRIT OF CERTIORARI THAT WAS
DENIED ON JUNE 21,2021 THE PETITION FOR REHEARING WAS DUE ON OR

RECEIVED
SEP - 8 2021
OFFICE OF THE CLERK
SUPREME COURT. u!s

BEFORE JULY 16,2021. THE PETITIONER BECAME ILL AFTER A EMERGENCY
HOSPITAL STAY
AUGUST 2021

STARTING FROM JULY 4,2021 AND LASTED UNTIL LATE
FROM THE DELTA 19 COVID SYMPTOMS. ATTACHED TO THIS

MOTION FOR LEAVE TO FILE A PETITION FOR REHEARING IS THE
DOCTORS MEDICLE RECORDS FOR THE SUPREME COURTS CONSIDERATION
FUTHERMORE PETITIONER PETITION FOR REHEARING IS RESTRICTED TO
THE GROUNDS SPECIFIED AND

ARE LIMITED TO THE INTERVENING

CIRCUMSTANCES OF A SUBSTANTIAL OR CONTROLLING EFFECT OR TO
OTHER SUBSTANTIAL GROUNDS NOT PREVIOUSLY PRESENTED. THE PETITION
FOR REHEARING IS PRESENTED IN GOOD FAITH AND NOT FOR DELAY.
FOR ALL

THESE REASONS, AND THOSE STATED ABOVE.PLAINTIFF RESPECT-

FULLY REQUESTS THAT THEC COURT GRANT PLAINTIFF LEAVE TO FILE
THE ATTACHED PETITION FOR REHEARING.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY THAT A TRU COPY WAS SERVED ON RESPONDENT AT
RESPONDENT LAST KNOWN ADDRESS BY U.S. POSTAL SERVICE
SEPTEMBER 3,2021 .

ON

RESPECTFULLY SUBMITTED,
TRACY NIXON PRO SE
4415 SOUTH MALCOLM X BLVD
DALLAS TEXAS 75215
469-407-1468
tpix9 2 0 4 @ gmai1.com

Additional material
from this filing is
available in the
Clerk's Office.

